Supreme Court, U.S.
FILED

no.

'1703OFFICE OF THE CLERK

IN THE
Supreme Court of the United States

JIMMY COBB,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

JIMMY COBB
Pro se

REciivirjJUN -g 2021

QUESTION PRESENTED
The Eleventh Circuit, affirming Petitioner’s conviction under 18
U.S.C. § 2425, which prohibits enticing, encouraging, offering, or
soliciting “any person” to engage in sexual activity with a minor,
concluded that Petitioner violated the statute by texting his
acceptance of a solicitation of prostitution by an undercover police
officer who pretended to be under the age of 18, after drawing
Petitioner’s interest by advertising adult escort services on the
internet using photographs of an adult woman to depict her
appearance.
The questions presented are:
1. Does a District Court have the have Jurisdiction to punish and
convict conduct that does not fall within a Federal Statute of 18
U.S.C 2422(b) and 18 U.S.C. 2425?
2. Does the District Court and Court of Appeals have the authority
to make a statute vague after precedence has been set for that
statute ?
3. Can the District Court and Court of Appeals relieve Counsel of
his fiduciary duty under the Sixth Amendment of the Constitution,
by allowing counsel to advise Petitioner to accept a plea deal
where Petitioner’s conduct did not violate statutes 18 U.S.C.
2422(b) nor 18 U.S.C. 2425?

PARTIES TO THE PROCEEDINGS BELOW
There are no parties to the proceeding other than those listed in the
style of the case.

ii

TABLE OF CONTENTS
QUESTION PRESENTED

(i)

INTERESTED PARTIES

(ii)

OPINION BELOW

1

JURISDICTION

1

PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

3

1. Does a District Court have the have Jurisdiction to punish and
convict conduct that does not fall within a Federal Statute of 18
U.S.C 2422(b) and 18 U.S.C. 2425?
2. Does the District Court or Court of Appeals have the authority to
make a statute vague after precedence has been set for that statute?
3. Can the District Court and Court of Appeals relieve Counsel of
his fiduciary duty under the Sixth Amendment of the Constitution,
by allowing counsel to advise Petitioner to accept a plea deal
where Petitioner’s conduct did not violate statutes 18 U.S.C.
2422(b) nor 18 U.S.C. 2425?
CONCLUSION

21

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, United
Stales v. Cobb, No. 20-12919-G (April 2, 2021)..........................
la
Decision of the Court of Appeals, denying petition for
rehearing/reconsideration, United States v. Cobb, No. 20-12919-G
(May 24, 2021)... 4a
Decision of the Eleventh Circuit District Court, denying petition
for lack of merit.....5a

iii

TABLE OF AUTHORITY
CASES
Arline v. School Bd. Of Nassau County, 772 F. 2d. 759, 762 (11th
Cir. 1985, afFd, 480 U.S. 273, 107 S. Ct. 1123, 94 L. Ed. 2d. 307
(1987).....18
Beneby v. United States, 2018 U.S. Dist. LEXIS 81726 (11th Cir.
2018).....18
Bousley v. United States, 523 U.S. 614 (1998)....20
Brady v. United States, 397 U.S. 742, 478 (1970).....20
Connally v. General Construction Co., 269 U.S. 385, 391
(1926).....14
Consumer Product Safety Comm’n v. GTE Slyvannia Inc., 447
U.S. 102, 108, 100 S. Ct. 2051, 64 L. Ed. 2d. 766(1980).....18
Davis v. United States, 417 U.S. 333, 346-347 (1974)....20
Griffin v. Oceanic Contractors, 458 U.S. 564, 571, 102 S. Ct. 3245,
73 L. Ed. 2d 973 (1982).....13
Henderson v. Morgan, 426 U.S. 637, 644-645 (1976).....20
Kozak v. United States, 2018 U.S. Dist, LEXIS 17350 (11th Cir.
2018).....3
Skilling v. United States, 561 U.S. 358 (2010).....14
Smith v. O’Grady, 312 U.S. 329, 334 (1941)

20

Syed v. United States, 2018 U.S. Dist. LEXIS 132890 (11th Cir.
2018).....5
Torres v. Lynch, 136 S. Ct. 1619, 1630, 194 L. Ed. 2d 737
(2016).....3
United States v. Davis, 139 Ct, 2319 (2019).....17
United States v. Evans, 476 F. 3d 1176, 1180-81 (lllh Cir.
2007).....4, 11, 15
United States v. Giordano, 442 F.3d 30 (2006)

7, 16, 19

United States v. Hill, 783 F.3d 842 (11th Cir. 2015)....7
United States v. Hudson, 7 Cranch32 (1812).....21

iv

United States v. James, 478 U.S. 597, 606, 106 S. Ct. 3116, 92 L.
18
Ed. 2d 483 (1986)
United States v. King, 560 F. Supp. 2d 906 (9th Cir. 2008)
19

6, 16,

United States v. Lanier, 20 U.S. 259, 267-268, n.6 (1997).....21
United States v. Lay, 583 F. 3d 436, 448 (6th Cir. 2009).....6
United States v. Murphy, 530 F. Appx. 522, 524 n. 1 (6th Cir.
2009).....6
United States v. Murrell, 368 F. 3d 1283 (lllh Cir. 2004).....4, 15,
19
United States v. Rumely, 345 U.S. 41, 45, 47, 73 S. Ct. 543, 97 L.
Ed. 770(1953).....17
United States v. Spencer, 2013 Dist. LEXIS 7752 (6th Cir.
2013).....12
United States v. Taylor, 338 F. 1280, 2003 U.S. App LEXIS 14827
(11th Cir. 2003)...6, 16, 19
United States v. Wishman, 757 Fed. Appx. 391 (5Ul Cir. 2019).....7

OTHER AUTHORITIES
18U.S.C. 2422(b)

passim

18 U.S.C. 2425 ....

passim

OPINION OF THE COURT BELOW
The decision of the Eleventh Circuit Court of Appeals, reported at
United States v. Cobb, is contained in the Appendix (la-3a).
STATEMENT OF JURISDICTION
The Eleventh Circuit Court of Appeals affirmed the conviction and
sentence on April 2, 2021 and denied rehearing on May 2, 2021
(App. 4a). This Court has jurisdiction under 28 U.S.C. § 1254(1).

STATUTORY AND OTHER PROVISIONS INVOLVED
18 U.S.C. § 2422(b)
Whoever, using the mail or any facility or means of interstate or
foreign commerce, or within the special maritime and territorial
jurisdiction of the United States knowingly persuades, induces,
entices, or coerces any individual who has not attained the age of
18 years, to engage in prostitution or any sexual activity for which
any person can be charged with a criminal offense, or attempts to
do so, shall be fined under this title and imprisoned not less than 10
years or for life.
18 U.S.C. 2425
Whoever, using the mail or any facility or means of interstate or
foreign commerce, or within the special maritime and territorial
jurisdiction of the United States, knowingly initiates the
transmission of the name, address, telephone number, social
security number, or electronic mail address of another individual
knowing that such other individual has not attained the age of 16
years, with the intent to entice, encourage, offer, or solicit any
person to engage in any sexual activity for which any person can
be charged with a criminal offense, or attempts to do so, shall be
fined under this title, imprisoned not more than 5 years, or both.

STATEMENT OF THE CASE
On November 16, 2007, a grand jury indicted Petitioner for
Attempted Online Enticement of a minor in violation of O.C.G.A.
16-6-5 and 18 U.S.C. 2422(b). Petitioner was arrested as part of an
undercover operation conducted by the Georgia Bureau of
Investigation (GBI) and the Georgia Internet Crimes Against
Children Task Force in Columbus, Georgia on November 11,
2017. On March 5, 2018, Petitioner showed up for trial, but to the
1

advice of counsel, pled guilty to a superseding count of the use of
facilities and foreign commerce to transmit information about a
minor in violation of 18 U.S.C. 2425.
Petitioner agreed that Respondent could prove at trial that on
November 11, 2017, a GBI uncover agent (UC) posted an ad on
“Backpage .com,” an adult website, whereby age must be verified
as 18 years or older before entering the site. The ad read “Petite
little Bad Girl! Ready to please,” “Ready for a night you’ll never
forget? Call me[.]” The UC also posted a phone number and
photos of herself posting as a young girl in a hotel room. The ad
listed the UC’s age as “69” and “[i]n the training and experience of
law enforcement, a posting age of ‘69’ is a code for the fact that a
child is being advertised for prostitution. Petitioner contacted the
UC by text message and stated that he saw the UC’s ad on
Backpage. The UC told the Petitioner she was 14 years old,
Petitioner “stated that he wished to engage in sexual intercourse
with the UC at a rate of $20.00 for five minutes of the UC’s time,”
and Petitioner stated he would bring a condom so the UC would
not get pregnant. Petitioner called the UC, the UC stated she was
14 years old, and Petitioner repeated that he wanted to have sex
with her. During the conversation, the GBI used information from
messages and phone call to identify the caller as Petitioner, who
lived in Columbus, Georgia. The UC provided the address for the
meeting. Petitioner traveled to that address, and Columbus Police
Department officers arrested him upon arrival. A Federal Bureau
of Investigation (FBI) agent interviewed Petitioner the same day.
During that interview, Petitioner stated it was a bad decision to
answer the Backpage ad, indicated he did not visit the site seeking
to have sex with an underage girl, but admitted he did not
terminate conversation with the UC.
Petitioner was sentenced to 24 months imprisonment and a $100
court assessment. Petitioner was also required to provide a DNA
sample and comply with the requirements of the Sex Offender
Registration and Notification Act under 34 U.S.C. 10901, et seq.
Judgment was entered against him on July 17, 2018, the Court
received Petitioner’s motion to vacate his sentence under 28 U.S.C.
2255, alleging ineffective assistance of counsel. On December 28,
2018, the Court received Petitioner’s motion to supplement
alleging actual innocence and lack of Jurisdiction. The Court
received his first motion for summary judgment on January 3,
2019, and his motion for default judgment on February 1, 2019,
and Respondent responded on February 4, 2019. The Court
2

received Petitioner’s first reply on February 25, 2019, and his
identical second reply on March 7, 201.9.

REASON FOR GRANTING THE WRIT
1. Does a District Court have the have Jurisdiction to
punish and convict conduct that does not fall within a
Federal Statute of 18 U.S.C 2422(b) and 18 U.S.C. 2425

It is certainly true that each federal criminal statute contains a
jurisdictional element which connects the statute to one of
Congress enumerated powers, thus establishing legislative
authority to punish certain conduct. Torres v. Lynch. 136 S. Ct.
1619, 1630, 194 L. Ed. 2d 737 (2016). This jurisdiction
component, as well as the substantive elements, must be proved
beyond a reasonable doubt. Kozak v. United States. 2018 U.S. Dist
LEXIS 17350 (11th Cir. 2018). Each statute has a purpose that
Congress set out to prohibit and punish a given conduct thus giving
Federal Courts Jurisdiction.

3

I
As the offense of 18 U.S.C. 2422 (b) states per the jury instruction,
the first element of proof that the government must prove as the
Eleventh Circuit Court of Appeals stated, “Combining the
definition of attempt with the plain language 2422 (b), the
government must prove that [the defendant], using the internet,
acted with specific intent to persuade, induce, entice, or coerce a
minor to engage in unlawful sex. United States v. Murrell. 368
F.3d 1283 (11th Cir. 2004).
The Court of Appeals stated in the denial of Cobb’s COA and
agreed with Cobb that he never used the Internet violate 2422 (b)
and stated, “Reasonable jurist would not debate the denial of this
claim, as both statutes require only that a defendant “us[e] the mail
or any facility or means of interstate or foreign commerce,” not
exclusively the Internet. See 18 U.S.C. 2422 (b) and 2425. Mr.
Cobb admitted that he used his cellphone to both text message the
UC using the number listed on the Backpage ad. We previously
have held that cellular phones are instrumentalities of interstate
commerce. See United States v. Evans, 476 F.3d 1176, 1180-81
(11th Cir. 2007). Therefore, even if he did not use the internet to
communicate with the UC, the District Court had jurisdiction to
convict and sentence him. App. 3a
Cobb avers, that if the Court of Appeals reliance on the fact that he
used a cellphone, and not the internet to communicate with the UC,
why is it the first element of proof that the government must
establish, which is defined by Congress for this statute. See
Murrell. It states nothing about electronic devices or mail
system ... , it specifically states, that the use of the Internet must be
present to sustain a conviction. Therefore, without this element,
4

and the substantive elements of 2422 (b) there can be no
conviction.
Furthermore, the Eleventh Circuit stated, “that if anything, our
precedent has acknowledged that offline conduct can form part of
the basis for a substantial step.” Government must prove that the
defendant knowingly intended to commit the crime. Sved v. United
States. 2018 U.S. Dist LEXIS 132890 (11th Cir. 2018). If 2422(b)
prohibition was aimed at online solicitation of a minor, using the
internet, then offline conduct cannot satisfy the basi s of the statute,
according to Congress and the Eleventh Circuit Court of Appeals.

II
The statute 18 U.S.C. 2425 elements are (1) the uses of mail or
facility or means of interstate of foreign commerce..., (2)
knowingly initiates the name, address, phone number, social
security number or electronic mail address of another individual,
knowing that individual has not attained the age of 16 year, (3)
with the intent to entice, encourage, offer, or solicit any person to
engage in any sexual activity with the minor. See 18 U.S.C. 2425.
Its clear that 2425 has three people that are involved to violate this
statute according to the plain language of the statute, (1) the
defendant, (2) the minor, and (3) the any person (i.e. John) that is
being enticed, encouraged, offered, or solicited to have sex with
the minor.
The Eleventh Circuit has dealt with this statute and the conduct
that Congress prohibits under 2425. James Taylor was fired from a
home remodeling job. Mr. Taylor in retaliation, posted a message
on an internet bulletin board encouraging men to call the 12-year5

old daughter of the woman who fired him to engage in sexual
activities with the daughter. Mr. Taylor was convicted for the use
of interstate facilities to transmit information about a minor “with
the intent to entice, encourage, offer, solicit any person to engage
in criminal activity with the minor. United States v. Taylor. 338,
F.3d 1280, 2003 U.S. App. LEXIS 14827 (11th Cir. 2003). Mr.
Taylors conduct fail within the scope of 18 U.S.C. 2425 and what
Congress sought to punish.
Furthermore, from the Ninth Circuit, in United States v. Kins. 560
F. Supp. 2d. 906 (9th Cir. 2008), there was a sting operation that
suspected prostitution activity into advertisement that were posted
on the Craigslist internet website. Upon investigation the agents
contacted the information from the site and proceeded to the hotel,
where they eventually found that the woman in the ad was a minor
accompanied by King. King was charged with violating 18 U.S.C.
1591, sex trafficking of children, and 18 U.S.C. 2425, transmission
of information about a minor, for using his computer to post the
minors information on the website for others to contact the minor
for a sexual encounter.
Even when enhancing an individual for violation of 18 U.S.C.
2425, 2G 1..3(b)(3)(B) tracks the same language of the statute 2425.
It states that it is used to enhance those that use a computer to
entice, encourage, offer or solicit a third party, “john” to engage in
sexual conduct with the minor, does not apply without three
people- (1) the defendant, (2) the minor, (3) the any person, the
person being enticed to have sex with the minor. United States v.
Murphy. 530 F. Appx 522, 524 n.l (6th Cir.
2013)('unpublished)(ciuoting United States v. Lav. 583 F.3d 436,
448 (6* Cir. 2009)(Merritt dissenting in part)(emphasis
added)(internal quotation omitted); United States v. Urinaler, 765
6

F.3d 445 (5th Cir. 2014); United States v. Wish man. 757 Fed.
Appx. 391 (5th Cir. 2019)(2G1.3(b)(3)(B) applies only when
defendant induces a third party to engage in sexual activity with a
minor); United States v. Hill. 783 F.3d 842 (11th Cir. 2015) (Hill
used a computer to advertise sexual services of minors).
There is also another case from the Second Circuit concerning 18
U.S.C. 2425. In United States v. Giordano. 442 F.3d 30 (2006),
Phillip A. Giordano prosecution on the charges that led to this
appeal grew out of an unrelated investigation by the FBI and IRS
into political corruption in the city of Waterbury. Giordano, then
mayor of Waterbury, was a target of this investigation. On
February 18, 2001, the government obtained from United States
District Judge Alan H. Nevas of the District of Connecticut an ex
parte order authorizing it to intercept phone communications of
Giordano and other targets of the investigation pursuant to the
federal wiretap statute commonly known as "Title III," 18 U.S.C.
§§ 2510-2520. Between February and July of 2001, the
government continued to monitor calls made to and from
Giordano's city-issued cell phones, among others, renewing its
Title HI application every thirty days and submitting periodic
progress reports to the district court. Judge Nevas approved the
renewal applications in each instance (a total of seven times).
In the course of this surveillance, the government intercepted 151
calls on Giordano's cell phones to or from Guitana Jones, a
prostitute with whom Giordano had a long-term sex-for-money
relationship. On July 12, 2001, the government reviewed the
contents of a brief July 9 call between Jones and Giordano that
suggested that Jones was bringing a nine-year-old girl to Giordano
for sex. In another, equally brief July 12 call, Giordano asked if
Jones would have with her the nine-year-old or another female
7

whose age was not discussed. The government had an undercover
police officer call Giordano's cell phone on the afternoon of July
12 and leave an anonymous message telling him, in threatening
and profane but vague terms, that the caller knew about the little
kids and would tell the media if Giordano did not desist. On July
13, the government intercepted a call between Giordano and Jones
in which Giordano told Jones about the message and discussed
who might have left it. Gordano asked if the father of the second
individual was alive, to which Jones replied: "No, [she] don't say
nothin'. . . . [T]hey, them kids haven't said anything. They do not
say nothing." Giordano answered, "Well someone said something
to someone because this dude knew." Later in the same
conversation, Jones said: "Nobody knows about them. Nobody.
Nobody knows about them at all 'cause they don't even say
nothing ' cause I got them to the point where they're scared, if they
say somethin' they're gonna get in trouble. They don't say
anything."
The government advised the district court, in filings on July 13 and
18, that it believed that Jones might be procuring for Giordano the
sexual services of Jones' daughter and another minor female
relative. On July 20, 2001, the government filed a criminal
complaint against Jones charging her with violations of 18 U.S.C.
§§ 371 and 2425 and obtained a warrant for her arrest. In the early
hours of July 21, 2001, state authorities removed Jones' nine-yearold daughter (whom we refer to as "VI") and her eleven-year-old
niece ("V2"), from the Jones household. The FBI intercepted a call
soon after in which Jones advised Giordano that state authorities
had removed the girls. Jones falsely told Gordano that a driver
who had taken Jones, VI and V2 to see Giordano was demanding
$200 not to tell the authorities. Giordano placed this sum in an

8

envelope in the mailbox outside his house. The FBI arrested Jones
shortly after she retrieved the money.
At the behest of the FBI, Jones then called Giordano and falsely
told him the driver was demanding additional payment. Giordano
and Jones agreed to meet in a commuter parking lot on July 23,
where Giordano would give her $500. On that date, after Giordano
had given Jones money at the parking lot, agents approached him
and informed him that they had evidence of his sexual misconduct
and other corrupt activities not relevant to the instant appeal. Over
the next seventy-two hours, Giordano cooperated with the agents
in the ongoing investigation of other targets of the original
corruption investigation. On July ,26, Giordano was arrested.
Its clear in this case that Giordano, was using Jones via cellphone
messages and calls to procure the sexual services of the minors.
There is no mention in either Taylor, King, or Giordano where the
arrest, prosecution came via them having direct communication
with the minor. Meaning that there were always three parties
involved the: (1) the defendant (Taylor, King, Giordano), (2) the
minors and (3) the men or parties being influenced to have sex
with the minor or procure services of the minor (i.e. Jones or the
men contacting the minors via phone calls from the information
placed on the ads. If this was not the case the statute would have
dealt with the prosecution of the men who contacted the minor via
the information provided on the ads. But it did not, because that
conduct deals with direct communication with the minor which is
strictly prohibited under 18 U.S.C. 2422 (b), via the Internet.
The Court of Appeals has not cited any authority to justify the
denial of Cobb’s COA only that Cobb “initiated the transmission
of the UC’s informati on.” App. 3a Never stating who Cobb was

9

trying to entice, encourage, solicit, or offer the minor to a third
party to have sex with the UC.

m
It is clear, that the party being punished under 18 U.S.C. 2425, is
the party who is trying to directly influence a third party to have a
sexual encounter with a minor by initiating the transmission of the
minor’s information to or for a third party to have access to. Not
set to punish the minor nor the third party who is contacting the
minor. In the statutes plain language it is clearly trying to keep
others from using the minor’s information to introduce them into a
world on sexual activity with others and is set the punish only
those who initiated this sequence for the purpose of exposing the
minor, for others sexual pleasures or using others to gain access to
the minor, regardless of if the minor is contacted by the third party
or not. The statutes plain language is not ambiguous and easily
understood, and case law shows that in this circuit and Sister
Circuits. The Government, District Court and the Court of
Appeals, in Cobb’s case, has punished conduct that’s not
prohibited by statute 18 U.S.C. 2425.
Its unequivocal based on the factual basis of Cobb’s case, that the
Government posted the ad to encourage others to call the number
placed on the Backpage Ad for a sexual encounter which is exactly
what Congress sought to punish. Its also clear that Cobb only
communicated with the UC through text and phone call that were
provided by the Government on the ad. Therefore, if Cobb and the
UC were only communicating with one another and there was no
third person involved for Cobb to entice, encourage, offer or solicit
to have a sexual encounter with the minor, there is no way Cobb
conduct fail within the scope of the 2425. Therefore, the District
10

Court relinquishes jurisdiction because Cobb’s conduct does not
fall within 18 U.SC. 2425 there could not have been a violation of
either statute.
If the Court of Appeals is going to hang its hat on the fact the Cobb
used a cellular phone to text and call the UC and disregard the
substantive side of the law the District Courts will always be able
to overreach and punish conduct that does not violate federal law.
If that is the case O.C.G.A 40-6-241, which is Georgia’s text and
driving statute, could be punished in the District Courts only on the
basis that a cellphone was used. Conduct with the cellphone would
be irrelevant. This would abolish the states authority to punish any
crime where a cellphone is used. However, outside of the use of
the cell phone, the conduct does not violate any federal statute, so
therefore the District Court does not have jurisdiction to punish
and convict.

IH
The Court of Appeals uses Evans as the case to justify denying
Cobb Certificate of Appealability, App. 3a, Cobb think its only
right to examine Evans’s conduct and crime of conviction to if
Cobb and Evans conduct and crimes are the same.
In United States v. Evans. Evans was convicted of enticing a
minor to engage in commercial sex act in violation of 18 U.S.C.
1591 (a)(1) and enticing a minor to engage in prostitution in
violation of 2422 (b). (476 F.3d 1176 (11th Cir. 2007)). Evans ran a
prostituti on ring in the State of Florida whereby he employed a
minor, 14-year-old as a prostitute, serving as her pimp. Evans
would set up meeting with the client meeting by calling and
11

receiving phone calls from those interested. Evans’s argument was
that since his phone calls were intrastate the District Court never
had jurisdiction to punish and convict and that it was purely a state
matter. The Court ruled that because the phone lines were an
instrument of interstate commerce, even if the calls were intrastate,
under the Commerce Clause and because there is a national interest
to put an end to sex trafficking of children, the court had
jurisdiction over the charge.
There are two distinct differences between Cobb and Evans case.
First, Evans was a completed act and was never indicted or
charged with Attempted Online Enticement. Two, Cobb argument
has never been that intrastate calls, as in Evans’s case, were not of
the District Courts jurisdiction.

IV
The Sixth Circuit has also dealt with this issue and the use of mail
and interstate commerce when prosecuting defendants for violation
of 2422(b).
In United States v. Svencer. 2013 Dist LEXIS 77522 (6th Cir.
2013), Mr. Spencer had an ongoing relationship with his daughter.
Spencer text his daughter about having sex with her again and
mailed letters from jail describing sex act he wanted to participate
with her.
In Honorable Judge Terrance P. Kemp Opinion to the court, he
stated that:
“this" is a very difficult case, at least in part, because, based on the
history of the statute
12

and on the legislative history, which does exist, there is no
concerned with this type of
evidence that Congress was
conduct when it enacted and amended 2422(b). Its would be hard
to argue that Mr. Spencer is an “online predator” or that he was a
pedophile in active search of a child victim. Further, the
criminality of his conduct appears to lie primarily in his
relationship with his daughter, a matter of state law punishes as
sexual battery, texts and letter, sent well after sexual relationship
was established, were not means to the end of finding a sexual
partner.
However, even though there is little evidence that Congress was
concerned about criminalizing incestuous relationships which
involve, in some fashion, the use of text messages or letters, the
Court must divine Congress’ intent not from remarks in legislative
reports but from the words Congress chose; the latter received the
necessary votes to become law, while the former did not. It is the
“rare case[] [where] the literal interpretation of a statute will
produce a result demonstrably at odds with the intentions of its
drafters” so that the courts must consider the drafters’ intentions,
rather than the words of the statute, to be controlling. Griffin v.
Oceanic Contractors. 458 U.S. 564, 571, 102 S. Ct. 3245, 73 L.
Ed. 2d 973 (1982). That result is usually reserved for cases where
the statutory language is clear but the result of applying the statute,
as written, would “lead to internal inconsistencies, and absurd
result, or an interpretation inconsistent with the intent of
Congress...”
V
Given Murrell, where the Eleventh Circuit expressly stated
Congress intent when it came to 2422(b) and the Sixth Circuit in
Spencer, it clear that the plain language of the statute not followed
with Congress intent is set to produce inconsistencies of law and
absurd results. The Eleventh Circuit made it clear in Taylor, under
18 U.S.C. 2425, where that Taylors conduct fell within the scope
of the statutes plain language.

13

2. Does the District Court or Court of Appeals have the
authority to make a statute vague after precedence has been set
for that statute
[T]he terms of a penal statute [...] must be sufficiently explicit to
inform those who are subject to it what conduct on their part will
render them liable to its penalties.. .and a statute which either
forbids or requires the doing of an act in terms of vague that men
of common intelligence must necessarily guess at its application
violates the first essential of due process of law. Connallv v.
General Construction Co.. 269 U S. 385, 391 (1926), Justice
Sutherland. It is held that a “penal statute must define the criminal
offense (1) with sufficient definiteness that ordinary people can
understand what conduct is prohibited and (2) in a manner that
does not encourage arbitrary and discriminatory enforcement.
Skillinsv. United States. 561 US. 358 (2010).
Cobb argument is not that statute 18 U.S.C. 2422(b) and 2425, is
vague, the plain language makes it clear what the statutes
prohibitions are. Congress prohibition of each law has been clearly
defined.
However, it seems that 2422(b) is 2-fold. One side deal with an
attempt and the other deals with the completed act. Which leaves to
arbitrary prosecution and combining of a 2-fold statute whenever it
is convenient as the Government and the Lower Courts have done
in Cobb’s case.

14

I
The statute 18 U.S.C. 2422(b) attempt, provides that, the first
element of proof that the Government must have is that they must
show that the defendant used the internet to persuade, induce, entice,
or coerce the perceived minor into sexual activity. See Murrell.
Statute 2422(b) completed side seems to punish any use of
instrumentalities or means of interstate commerce or foreign
commerce. See Evans
As here in Cobb case, the Government provided no proof that Cobb
used the internet to communicate with the UC, and the Court of
Appeals agreed that not reasonable jurist would debate this fact, App
3a However, the Court of Appeals has stated that internet use is not
necessary to convict for Attempted Online Enticement when the jury
instructions clearly states that that is the first element of proof to
sustain a conviction for the statute 2422(b). If this is the case, how
can any defendant properly prepare himself to defend against this
statute or let alone jury instructions, if they disprove an element that
must be proven but still be sent to prison for a mandatory minimum
of 10 years.
So, the question becomes, is Attempted Online Enticement, 18
U.S.C. 2422(b), set to punish all forms of sexual activity dealing
with minors or is it set out only to punish online solicitation under
the Attempt portion of the statute. Congress made it clear that it
aimed to prohibit online solicitation. Even when Shepardizing
2422(b) in the Eleventh Circuit, all cases involving 2422(b) deals
expressly with cases where defendants were using the internet in
some form (chat rooms, instant messaging, or email) to
communicate with minors to solicit them directly or through an
intermediary for sexual acts. The case of Evans is the outlier only
15

because it did not deal with Attempted Online Enticement however,
Evans still managed to be convicted for 18 U.S.C. 2422(b), but on
the completed side of the statute.

II
Analyzing 18 U.S.C. 2425, its clear that the statute is set out to
punish conduct whereby the defendant initiating the minor’s
information, via mail, cellphone, or internet, to entice, encourage,
offer, or solicit others (any person) to participate in sexual acts
with the minor. See Taylor. Kins or Giordano. If the Eleventh
Circuit Court of Appeals and the District Courts can convict and
sentence defendants by eliminating the third party out of the statute
that is being enticed, encouraged, solicited, o offered the minor for
a sexual act then they have basically eliminated an element from
the statute and created it on statue to procure a convenient
conviction. Punishing direct communication under 2425 will create
two meanings for the statute. It does not make sense to interpret
2425 otherwise, if so, Congress would have written it without the
“any person” as it did in 18 U.S.C. 2422(b). The Court of Appeals
argued that Cobb conflated statutes, but it seems that the Court has
done the same by conflating 2422(b) and 2425 when they are
clearly two separate statutes that stand on their own and have two
different prohibitions. The substantive plain language makes that
clear and the penalty for violating each statute is drastically
different.
First, it would not make sense for the “any person” to be the
defendant, because he would be sending himself/herself the
information of the minor to seduce himself. Secondly, the “any

16

person” would not be the minor, because it would not make sense
to transmit the minor own information to the minor to seduce the
minor. Statute 2425 is not punishing the seducing of the minor,
but a third party. Lastly, the “any person” is only left to be anyone
besides the defendant or the minor as precedent shows and the
plain language of the statute reads. It only makes sense that way.
If that’s not the plain language of the statute then how can anyone
read that statute and be forewarned about what conduct is set out to
be punished.

ni
The Supreme Court has dealt with the issue of a vague law. The
court states that a vague law is no law at all. The vagueness
doctrine rests on the twin constitutional pillars of due process and
separation of powers. United States v. Davis. 139 Ct 2319 (2019).
Relying on the canon of constitutional avoidance, .. .the Court’s
duty is to adopt any “fairly possible” reading to save the criminal
statute from being unconstitutional... .To expand or restrict a
criminal statute in order to save it would risk offending the very
same due process and separation of powers principle on which the
vagueness doctrine itself rests and would sit uneasily with the rule
of lenity’s teaching that ambiguities about a criminal statutes
breath should be resolved in the defendants favor. United States v.
Rumelv. 345 U.S. 41, 45, 47, 73 S Ct. 543, 97 L. Ed. 770 (1953).
And here it seems that the Court of Appeals have made both
statutes vague.

17

3. Can the District Court and Court of Appeals relieve Counsel
of his fiduciary duty under the Sixth Amendment of the
Constitution, by allowing counsel to advise Petitioner to accept
a plea deal where Petitioner’s conduct did not violate statutes
18 U.S.C. 2422(b) nor 18 U.S.C. 2425
“In absence of a clearly expressed legislative intention to the
contrary, the language of the statute itself must ordinarily be
regarded as conclusive.” United States v. James. 478 U S. 597,
606, 106 S.Ct. 3116, 92 L. Ed. 2d 483 (1986)(quoting Consumer
Product Safety Comm’n v. GTE Slvvania Inc.. 447 U S. 102, 108,
100 S. Ct. 2051, 64 L.Ed. 2d. 766 (1980)). “Where the language of
a statute is not ambiguous and does not lead to absurd results, the
job of the courts is to apply it as written.” Arline v. School Bd. of
Nassau County. 772 F.2d 759, 762 (11th Cir. 1985), aff d, 480
U.S. 273, 107 S. Ct. 1123, 94 L. Ed. 2d 307 (1987). This is a basic
jurisprudence of law that must be followed by the Courts,
consequently counsel is held to the same standard for knowing
such.
As the Sixth Circuit has framed it, the question is not whether the
counsel was inadequate, but rather counsel’s performance was so
manifestly ineffective that “defeat was snatched from the hands of
the probable victor.” Benebyv. United States, 2018 U.S. Dist.
LEXIS 81726 (11th Cir. 2018).

I
Given the above facts about Cobb’s case and authority the set for
lower courts by this Court, its clear that counsel was ineffective.

18

/

It is clear, that regardless of what plea charge, the government
should not have been able to procure a conviction for the charge of
18 U.S.C. 2422(b). Congress expressed its legislative intent and
agreed to by the Eleventh Circuit Court of Appeals, that
“Combining the definition of attempt with the plain language 2422
(b), the government must prove that [the defendant], using the
internet, acted with specific intent to persuade, induce, entice, or
coerce a minor to engage in unl awful sex. United States v.
Murrell. 368 F.3d 1283 (11th Cir. 2004). With this being so and
agreed to by the Court of Appeals that “no reasonable jurists would
debate the denial of this claim, App 3a, why would counsel advise
Cobb to plead guilty to anything if it could be shown that there was
no violation of 2422(b), because Cobb never used the internet to
communicate with the UC.
Further, given that counsel did advise Cobb to plead guilty to a
lesser charge of 2425, counsel is still responsible for advising
Cobb, under the presumption that Cobb’s conduct violated 18
U.S.C. 2425. Its clear that 2425 requires three parties:(l) the
defendant (Cobb), (2) the minor (UC), and (3) the any person,
which Cobb initiated the transmission of the minors information to
someone to entice, encourage, offer, or soliciting them to have
sexual activity with the minor (UC). The facts of the case clearly
show that Cobb only responded to the ad on Backpage that was
posted by the Government in the sting operation. And there was
only direct communication between the Cobb and the UC, and
Cobb never transmitted the UC’s information to anyone for the
purposes of enticing that individual to have sex with the minor
(UC). Id. Taylor, King, Giordano.

19

If counsel has no knowledge of what is required to violate each
statute, which is their responsibility, how can he properly advise
the defendant whether to go to trial or plead guilty.

II
Only a voluntary and intelligent plea is constitutionally valid.
Bouslev v. United States. 523 U S. 614 (1998); Brady v. United
States. 397 U.S. 742, 748 (1970). A plea is not intelligent unless
he receives a real notice of the nature of the charge against him .
Smith v. O' Grady. 312 U.S. 329, 334(1941).
Justice Stevens in Bousely made it perfectly clear, the fact that all
of the petitioner’s advisors acted in good faith does not mitigate
reliance on existing precedence impact of that erroneous advice.
Its consequences for the petitioner were just as severe, and just as
unfair, as if the court conspired to deceive him to induce him to
plead guilty to a crime that he did not commit. Id. @ 626. Our
cases make it perfectly clear that a guilty plea based on
misinformation is constitutionally invalid. Smith v. O’Grady, 312
U.S. 329, 334 (1941); Henderson v. Morgan. 426 U.S. 637, 644645 (1976). There can be no room for doubt that such a
circumstance ‘inherently results in a complete miscarriage of
justice’ and presents] exceptional circumstances’ that justify relief
under [28 U.S.C. 2255.” Davis v. United States. 417 U.S. 333,
346-347 (1974).

20

CONCLUSION
For under our Federal System, it is only Congress, and not the
courts, which can make conduct criminal . United States v. Lanier.
20 U.S. 259, 267-268, n.6 (1997): United States v. Hudson. 7
Cranch32 (1812). Its clear in Cobb’s case that the Court of
Appeals have completely ignored this rule of law which is the
foundation of the Federal system.
If Courts are allowed to go against this rule of law then any person
or conduct is subject to Federal jurisdiction even if their conduct
did not violate a federal statute.
For the foregoing reasons, Mr. Cobb respectfully request that this
court issue a writ of certiorari to review the judgment of Eleventh
Circuit Court of Appeals.
DATED this 30th day of May, 2021.
xe/tfully Submitted
l
Jimmy Co]

21

